         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Special Report



       Fiscal Year 2008
       Federal Information Security
       Management Act Report

       Status of EPA’s Computer Security Program


       Report No. 08-P-0280

       September 26, 2008
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL



                                       September 26, 2008

MEMORANDUM

SUBJECT:	             Fiscal Year 2008 Federal Information
                      Security Management Act Report:
                      Status of EPA’s Computer Security Program
                      Report No. 08-P-0280


FROM:	                Patricia H. Hill
                      Assistant Inspector General for Mission Systems

TO:                   Stephen L. Johnson
                      Administrator


Attached is the Office of Inspector General’s Fiscal Year 2008 Federal Information Security
Management Act Reporting Template, as prescribed by the Office of Management and Budget.
This audit was performed by Williams, Adley and Company, LLP, under the direction of the
U.S. Environmental Protection Agency’s Office of Inspector General. In addition, Appendix A
synopsizes the results of our significant Fiscal Year 2008 information security audits.

The estimated cost for performing this audit, which includes contract costs and Office of
Inspector General contract management oversight, is $388,135.

In accordance with Office of Management and Budget reporting instructions, I am forwarding
this report to you for submission, along with the Agency’s required information, to the Director,
Office of Management and Budget.
                                                Section C - Inspector General: Questions 1 and 2
Agency Name:          Environmental Protection Agency                                                    Submission date:            September 25, 2008
                                                           Question 1: FISMA Systems Inventory
1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other
organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS
199 system impact level (high, moderate, low, or not categorized). Extend the worksheet onto subsequent pages if necessary to include all
Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by
a contractor of an agency or other organization on behalf of an agency. The total number of systems shall include both agency systems and contractor
systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency;
therefore, self reporting by contractors does not meet the requirements of law. Self-reporting by another Federal agency, for example, a Federal service
provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.
                         Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number
and percentage of systems which have: a current certification and accreditation, security controls tested and reviewed within the past year, and a
contingency plan tested in accordance with policy.

                                                                     Question 1                                                 Question 2
                                                  a.                     b.                   c.                a.                    b.                c.
                                            Agency Systems       Contractor Systems    Total Number of      Number of            Number of         Number of
                                                                                          Systems        systems certified   systems for which systems for which
                                                                                        (Agency and       and accredited      security controls contingency plans
                                                                                         Contractor                           have been tested have been tested
                                                                                          systems)                            and reviewed in in accordance with
                                                                                                                                the past year         policy



                                                                                                  Total
                      FIPS 199 System                 Number                 Number     Total              Total   Percent Total   Percent Total   Percent
U.S. Environmental                         Number                Number                          Number
                      Impact Level                   Reviewed               Reviewed   Number             Number of Total Number of Total Number of Total
Protection Agency                                                                               Reviewed
OA                    High                       0           0          0          0        0           0        0               0               0
                      Moderate                   2           0          0          0        2           0        0               0               0
                      Low                        1           0          0          0        1           0        0               0               0
                      Not Categorized            0           0          0          0        0           0        0               0               0
                      Sub-total                  3           0          0          0        3           0        0               0               0
OAR                   High                       1           0          0          0        1           0        0               0               0
                      Moderate                  11           1          1          0       12           1        1   100%        0      0%       1   100%
                      Low                        6           0          1          0        7           0        0               0               0
                      Not Categorized            0           0          0          0        0           0        0               0               0
                      Sub-total                 18           1          2          0       20           1        1   100%        0      0%       1   100%
OARM                  High                       0           0          0          0        0           0        0               0               0
                      Moderate                  11           0          2          1       13           1        1   100%        1   100%        1   100%
                      Low                        0           0          0          0        0           0        0               0               0
                      Not Categorized            0           0          0          0        0           0        0               0               0
                      Sub-total                 11           0          2          1       13           1        1   100%        1   100%        1   100%
OCFO                  High                       0           0          0          0        0           0        0               0               0
                      Moderate                  18           1          0          0       18           1        1   100%        1   100%        1   100%
                      Low                        1           0          0          0        1           0        0               0               0
                      Not Categorized            0           0          0          0        0           0        0               0               0
                      Sub-total                 19           1          0          0       19           1        1   100%        1   100%        1   100%
OECA                  High                       0           0          0          0        0           0        0               0               0
                      Moderate                   8           1          0          0        8           1        1   100%        1   100%        1   100%
                      Low                        3           1          0          0        3           1        1   100%        0      0%       1   100%
                      Not Categorized            0           0          0          0        0           0        0               0               0
                      Sub-total                 11           2          0          0       11           2        2   100%        1     50%       2   100%
OEI                   High                       0           0          0          0        0           0        0               0               0
                      Moderate                  16           0          6          1       22           1        1   100%               0%       1   100%
                      Low                       16           1          3          0       19           1        1   100%        1   100%        1   100%
                      Not Categorized            0           0          0          0        0           0        0               0               0
                      Sub-total                 32           1          9          1       41           2        2   100%        1     50%       2   100%
OGC                   High                       0           0          0          0        0           0        0               0               0
                      Moderate                   1           0          0          0        1           0        0               0               0
                      Low                        0           0          0          0        0           0        0               0               0
                      Not Categorized            0           0          0          0        0           0        0               0               0
                      Sub-total                  1           0          0          0        1           0        0               0               0




                                                                                  1
                                                Section C - Inspector General: Questions 1 and 2
Agency Name:          Environmental Protection Agency                                                        Submission date:                September 25, 2008
                                                           Question 1: FISMA Systems Inventory
1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other
organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS
199 system impact level (high, moderate, low, or not categorized). Extend the worksheet onto subsequent pages if necessary to include all
Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by
a contractor of an agency or other organization on behalf of an agency. The total number of systems shall include both agency systems and contractor
systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency;
therefore, self reporting by contractors does not meet the requirements of law. Self-reporting by another Federal agency, for example, a Federal service
provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.
                         Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number
and percentage of systems which have: a current certification and accreditation, security controls tested and reviewed within the past year, and a
contingency plan tested in accordance with policy.

                                                                     Question 1                                                      Question 2
                                                  a.                     b.                   c.                    a.                     b.                c.
                                            Agency Systems       Contractor Systems    Total Number of          Number of             Number of         Number of
                                                                                          Systems            systems certified    systems for which systems for which
                                                                                        (Agency and           and accredited       security controls contingency plans
                                                                                         Contractor                                have been tested have been tested
                                                                                          systems)                                 and reviewed in in accordance with
                                                                                                                                     the past year         policy



                                                                                                  Total
                      FIPS 199 System                 Number                 Number     Total                 Total    Percent     Total     Percent     Total   Percent
U.S. Environmental                         Number                Number                          Number
                      Impact Level                   Reviewed               Reviewed   Number                Number    of Total   Number     of Total   Number   of Total
Protection Agency                                                                               Reviewed
OIA                   High                       0           0          0          0        0            0         0                     0                   0
                      Moderate                   0           0          0          0        0            0         0                     0                   0
                      Low                        0           0          0          0        0            0         0                     0                   0
                      Not Categorized            0           0          0          0        0            0         0                     0                   0
                      Sub-total                  0           0          0          0        0            0         0                     0                   0
OIG                   High                       0           0          0          0        0            0         0                     0                   0
                      Moderate                   7           0          0          0        7            0         0                     0                   0
                      Low                        0           0          0          0        0            0         0                     0                   0
                      Not Categorized            0           0          0          0        0            0         0                     0                   0
                      Sub-total                  7           0          0          0        7            0         0                     0                   0
OPPTS                 High                       0           0          0          0        0            0         0                     0                   0
                      Moderate                   6           1          1          0        7            1         1      100%           1      100%         1      100%
                      Low                        1           0          0          0        1            0         0                     0                   0
                      Not Categorized            0           0          0          0        0            0         0                     0                   0
                      Sub-total                  7           1          1          0        8            1         1      100%           1      100%         1      100%
ORD                   High                       0           0          0          0        0            0         0                     0                   0
                      Moderate                   7           0          0          0        7            0         0                     0                   0
                      Low                        8           0          0          0        8            0         0                     0                   0
                      Not Categorized            0           0          0          0        0            0         0                     0                   0
                      Sub-total                 15           0          0          0       15            0         0                     0                   0
OSWER                 High                       0           0          0          0        0            0         0                     0                   0
                      Moderate                   4           1          1          0        5            1         1      100%           1      100%         1      100%
                      Low                        4           0          1          0        5            0         0                     0                   0
                      Not Categorized            0           0          0          0        0            0         0                     0                   0
                      Sub-total                  8           1          2          0       10            1         1      100%           1      100%         1      100%
OW                    High                       0           0          0          0        0            0         0                     0                   0
                      Moderate                   8           0          0          0        8            0         0                     0                   0
                      Low                        0           0          0          0        0            0         0                     0                   0
                      Not Categorized            0           0          0          0        0            0         0                     0                   0
                      Sub-total                  8           0          0          0        8            0         0                     0                   0
R01                   High                       0           0          0          0        0            0         0                     0                   0
                      Moderate                   1           1          0          0        1            1         1      100%           0        0%         1      100%
                      Low                        0           0          0          0        0            0         0                     0                   0
                      Not Categorized            0           0          0          0        0            0         0                     0                   0
                      Sub-total                  1           1          0          0        1            1         1      100%           0        0%         1      100%




                                                                                  2
                                                Section C - Inspector General: Questions 1 and 2
Agency Name:          Environmental Protection Agency                                                        Submission date:                September 25, 2008
                                                            Question 1: FISMA Systems Inventory
1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other
organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS
199 system impact level (high, moderate, low, or not categorized). Extend the worksheet onto subsequent pages if necessary to include all
Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by
a contractor of an agency or other organization on behalf of an agency. The total number of systems shall include both agency systems and contractor
systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency;
therefore, self reporting by contractors does not meet the requirements of law. Self-reporting by another Federal agency, for example, a Federal service
provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.
                         Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number
and percentage of systems which have: a current certification and accreditation, security controls tested and reviewed within the past year, and a
contingency plan tested in accordance with policy.

                                                                     Question 1                                                      Question 2
                                                  a.                     b.                   c.                    a.                     b.                c.
                                            Agency Systems       Contractor Systems    Total Number of          Number of             Number of         Number of
                                                                                          Systems            systems certified    systems for which systems for which
                                                                                        (Agency and           and accredited       security controls contingency plans
                                                                                         Contractor                                have been tested have been tested
                                                                                          systems)                                 and reviewed in in accordance with
                                                                                                                                     the past year         policy



                                                                                                  Total
                      FIPS 199 System                  Number                Number     Total                 Total    Percent     Total     Percent     Total   Percent
U.S. Environmental                         Number                Number                          Number
                      Impact Level                    Reviewed              Reviewed   Number                Number    of Total   Number     of Total   Number   of Total
Protection Agency                                                                               Reviewed
R02                   High                        0          0          0          0        0            0         0                     0                   0
                      Moderate                    2          0          0          0        2            0         0                     0                   0
                      Low                         0          0          0          0        0            0         0                     0                   0
                      Not Categorized             0          0          0          0        0            0         0                     0                   0
                      Sub-total                   2          0          0          0        2            0         0                     0                   0
R03                   High                        0          0          0          0        0            0         0                     0                   0
                      Moderate                    1          0          0          0        1            0         0                     0                   0
                      Low                         0          0          0          0        0            0         0                     0                   0
                      Not Categorized             0          0          0          0        0            0         0                     0                   0
                      Sub-total                   1          0          0          0        1            0         0                     0                   0
R04                   High                        0          0          0          0        0            0         0                     0                   0
                      Moderate                    1          0          0          0        1            0         0                     0                   0
                      Low                         0          0          0          0        0            0         0                     0                   0
                      Not Categorized             0          0          0          0        0            0         0                     0                   0
                      Sub-total                   1          0          0          0        1            0         0                     0                   0
R05                   High                        0          0          0          0        0            0         0                     0                   0
                      Moderate                    2          0          0          0        2            0         0                     0                   0
                      Low                         1          0          0          0        1            0         0                     0                   0
                      Not Categorized             0          0          0          0        0            0         0                     0                   0
                      Sub-total                   3          0          0          0        3            0         0                     0                   0
R06                   High                        0          0          0          0        0            0         0                     0                   0
                      Moderate                    1          0          0          0        1            0         0                     0                   0
                      Low                         0          0          0          0        0            0         0                     0                   0
                      Not Categorized             0          0          0          0        0            0         0                     0                   0
                      Sub-total                   1          0          0          0        1            0         0                     0                   0
R07                   High                        0          0          0          0        0            0         0                     0                   0
                      Moderate                    1          0          0          0        1            0         0                     0                   0
                      Low                         0          0          0          0        0            0         0                     0                   0
                      Not Categorized             0          0          0          0        0            0         0                     0                   0
                      Sub-total                   1          0          0          0        1            0         0                     0                   0
R08                   High                        0          0          0          0        0            0         0                     0                   0
                      Moderate                    1          0          0          0        1            0         0                     0                   0
                      Low                         1          0          0          0        1            0         0                     0                   0
                      Not Categorized             0          0          0          0        0            0         0                     0                   0
                      Sub-total                   2          0          0          0        2            0         0                     0                   0




                                                                                  3
                                                Section C - Inspector General: Questions 1 and 2
Agency Name:          Environmental Protection Agency                                                      Submission date:                 September 25, 2008
                                                            Question 1: FISMA Systems Inventory
1. As required in FISMA, the IG shall evaluate a representative subset of systems used or operated by an agency or by a contractor of an agency or other
organization on behalf of an agency.

In the table below, identify the number of agency and contractor information systems, and the number reviewed, by component/bureau and FIPS
199 system impact level (high, moderate, low, or not categorized). Extend the worksheet onto subsequent pages if necessary to include all
Component/Bureaus.

Agency systems shall include information systems used or operated by an agency. Contractor systems shall include information systems used or operated by
a contractor of an agency or other organization on behalf of an agency. The total number of systems shall include both agency systems and contractor
systems.

Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency;
therefore, self reporting by contractors does not meet the requirements of law. Self-reporting by another Federal agency, for example, a Federal service
provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.
                         Question 2: Certification and Accreditation, Security Controls Testing, and Contingency Plan Testing
2. For the Total Number of Systems reviewed by Component/Bureau and FIPS System Impact Level in the table for Question 1, identify the number
and percentage of systems which have: a current certification and accreditation, security controls tested and reviewed within the past year, and a
contingency plan tested in accordance with policy.

                                                                     Question 1                                                     Question 2
                                                  a.                     b.                  c.                   a.                      b.                c.
                                            Agency Systems       Contractor Systems   Total Number of         Number of              Number of         Number of
                                                                                         Systems           systems certified     systems for which systems for which
                                                                                       (Agency and          and accredited        security controls contingency plans
                                                                                        Contractor                                have been tested have been tested
                                                                                         systems)                                 and reviewed in in accordance with
                                                                                                                                    the past year         policy



                                                                                                  Total
                      FIPS 199 System                 Number                Number     Total                Total     Percent     Total     Percent     Total   Percent
U.S. Environmental                         Number                Number                          Number
                      Impact Level                   Reviewed              Reviewed   Number               Number     of Total   Number     of Total   Number   of Total
Protection Agency                                                                               Reviewed
R09                   High                       0           0         0          0         0          0         0                      0                   0
                      Moderate                   1           0         1          0         2          0         0                      0                   0
                      Low                        0           0         0          0         0          0         0                      0                   0
                      Not Categorized            0           0         0          0         0          0         0                      0                   0
                      Sub-total                  1           0         1          0         2          0         0                      0                   0
R10                   High                       0           0         0          0         0          0         0                      0                   0
                      Moderate                   0           0         0          0         0          0         0                      0                   0
                      Low                        1           0         0          0         1          0         0                      0                   0
                      Not Categorized            0           0         0          0         0          0         0                      0                   0
                      Sub-total                  1           0         0          0         1          0         0                      0                   0
Agency Totals         High                       1           0         0          0         1          0         0                      0                   0
                      Moderate                 110           6        12          2       122          8         8       100%           5       63%         8      100%
                      Low                       43           2         5          0        48          2         2       100%           1       50%         2      100%
                      Not Categorized            0           0         0          0         0          0         0                      0                   0
                      Total                    154           8        17          2       171         10        10       100%           6       60%        10      100%
                                          = Data Entry Cells
                                          = Editable Calculations (no Data Entry-ONLY edit Formulas when necessary)




                                                                                  4
                                             Section C - Inspector General: Question 3
Agency Name:    Environmental Protection Agency
               Question 3: Evaluation of Agency Oversight of Contractor Systems and Quality of Agency System Inventory

      3.a.      The agency performs oversight and evaluation to ensure information systems used or operated by
                a contractor of the agency or other organization on behalf of the agency meet the requirements of
                FISMA, OMB policy and NIST guidelines, national security policy, and agency policy.

                Agencies are responsible for ensuring the security of information systems used by a contractor of their
                agency or other organization on behalf of their agency; therefore, self reporting by contractors does not
                meet the requirements of law. Self-reporting by another Federal agency, for example, a Federal service
                provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA            Mostly (81-95% of the
                compliance.                                                                                                   time)

                Response Categories:
                 - Rarely- for example, approximately 0-50% of the time
                 - Sometimes- for example, approximately 51-70% of the time
                 - Frequently- for example, approximately 71-80% of the time
                 - Mostly- for example, approximately 81-95% of the time
                 - Almost Always- for example, approximately 96-100% of the time

                The agency has developed a complete inventory of major information systems (including major
      3.b.      national security systems) operated by or under the control of such agency, including an
                identification of the interfaces between each such system and all other systems or networks,
                including those not operated by or under the control of the agency.
                                                                                                                              Inventory is 96-100%
                Response Categories:
                                                                                                                              complete
                 - The inventory is approximately 0-50% complete
                 - The inventory is approximately 51-70% complete
                 - The inventory is approximately 71-80% complete
                 - The inventory is approximately 81-95% complete
                 - The inventory is approximately 96-100% complete

      3.c.      The IG generally agrees with the CIO on the number of agency-owned systems. Yes or No.                                  Yes

                The IG generally agrees with the CIO on the number of information systems used or operated by a
      3.d.                                                                                                                              Yes
                contractor of the agency or other organization on behalf of the agency. Yes or No.

      3.e.      The agency inventory is maintained and updated at least annually. Yes or No.                                            Yes

                If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please identify the known missing systems
      3.f.      by Component/Bureau, the Unique Project Identifier (UPI) associated with the system as presented in your FY2008 Exhibit
                53 (if known), and indicate if the system is an agency or contractor system.

                                                                                                  Exhibit 53 Unique Project
                                                                                                                                Agency or Contractor
                              Component/Bureau                            System Name                  Identifier (UPI)
                                                                                                                                     system?
                                                                                                    {must be 23-digits}




                Number of known systems missing from
                                                                0
                inventory:
                                                                = Data Entry Cells


                                                                         5
                                                   Section C - Inspector General: Questions 4 and 5
Agency Name:         Environmental Protection Agency
                                     Question 4: Evaluation of Agency Plan of Action and Milestones (POA&M) Process
Assess whether the agency has developed, implemented, and is managing an agency-wide plan of action and milestones (POA&M) process. Evaluate
the degree to which each statement reflects the status in your agency by choosing from the responses provided. If appropriate or necessary, include
comments in the area provided.

For each statement in items 4.a. through 4.f., select the response category that best reflects the agency's status.

Response Categories:
 - Rarely- for example, approximately 0-50% of the time
 - Sometimes- for example, approximately 51-70% of the time
 - Frequently- for example, approximately 71-80% of the time
 - Mostly- for example, approximately 81-95% of the time
 - Almost Always- for example, approximately 96-100% of the time
                    The POA&M is an agency-wide process, incorporating all known IT security weaknesses associated with information
                                                                                                                                                    Almost Always (96-
        4.a.        systems used or operated by the agency or by a contractor of the agency or other organization on behalf of the
                                                                                                                                                    100% of the time)
                    agency.
                     When an IT security weakness is identified, program officials (including CIOs, if they own or operate a system)                Almost Always (96-
        4.b.
                     develop, implement, and manage POA&Ms for their system(s).                                                                     100% of the time)
                     Program officials and contractors report their progress on security weakness remediation to the CIO on a regular basis Almost Always (96-
        4.c.
                     (at least quarterly).                                                                                                  100% of the time)

                                                                                                                                                    Almost Always (96-
        4.d.         Agency CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.
                                                                                                                                                    100% of the time)
                                                                                                                                                    Almost Always (96-
        4.e.         IG findings are incorporated into the POA&M process.
                                                                                                                                                    100% of the time)
                     POA&M process prioritizes IT security weaknesses to help ensure significant IT security weaknesses are addressed in Almost Always (96-
        4.f.
                     a timely manner and receive appropriate resources.                                                                  100% of the time)
                     EPA has developed and implemented a POA&M program that ensures CIO reports on a regular basis the security weaknesses and remediation at least
 POA&M process       quarterly. The processes and procedures ensures OEI tracks, maintains, and reviews POA&M activities on a quarterly basis for weaknesses reported by
   comments:         EPA.


                                          Question 5: IG Assessment of the Certification and Accreditation Process
Provide a qualitative assessment of the agency's certification and accreditation process, including adherence to existing policy, guidance, and
standards. Provide narrative comments as appropriate.

Agencies shall follow NIST Special Publication 800-37, "Guide for the Security Certification and Accreditation of Federal Information Systems" (May 2004) for
certification and accreditation work initiated after May 2004. This includes use of the FIPS 199, "Standards for Security Categorization of Federal Information and
Information Systems" (February 2004) to determine a system impact level, as well as associated NIST document used as guidance for completing risk assessments
and security plans.

                     The IG rates the overall quality of the Agency's certification and accreditation process as:

                     Response Categories:
                      - Excellent
        5.a.                                                                                                                                        Good
                      - Good
                      - Satisfactory
                      - Poor
                      - Failing

                     The IG's quality rating included or considered the following aspects of the                Security plan                                  X
                     C&A process: (check all that apply)
                                                                                                              System impact level                              X
                                                                                                              System test and evaluation
                                                                                                              Security control testing                         X
        5.b.
                                                                                                              Incident handling
                                                                                                              Security awareness training
                                                                                                              Configurations/patching
                                                                                                              Other:
   C&A process       From our sample of 10 systems all had C&A documents. However 4 out of 10 did not provide security test results.
    comments:




                                                                                     6
                                            Section C - Inspector General: Questions 6, 7, and 8
Agency Name:   Environmental Protection Agency
                     Question 6-7: IG Assessment of Agency Privacy Program and Privacy Impact Assessment (PIA) Process

               Provide a qualitative assessment of the agency's Privacy Impact Assessment (PIA) process, as discussed in
       6       Section D Question #5 (SAOP reporting template), including adherence to existing policy, guidance, and
               standards.

               Response Categories:
                - Response Categories:                                                                                                          Excellent
                - Excellent
                - Good
                - Satisfactory
                - Poor
                - Failing


Comments:



       7       Provide a qualitative assessment of the agency’s progress to date in implementing the provisions of M-07-16
               Safeguarding Against and Responding to the Breach of Personally Identifiable Information.

               Response Categories:
                - Response Categories:
                                                                                                                                                Excellent
                - Excellent
                - Good
                - Satisfactory
                - Poor
                - Failing

               EPA is in the process of implementing program. Policies have been drafted. Procedures have been developed and implemented. Training is being provided.
Comments:


                                                         Question 8: Configuration Management

      8.a.     Is there an agency-wide security configuration policy? Yes or No.                                                                Yes
Comments:
               Approximate the extent to which applicable systems implement common security configurations, including
      8.b.
               use of common security configurations available from the National Institute of Standards and Technology’s
                                                                                                                                                Mostly (81-95% of the
               website at http://checklists.nist.gov.
                                                                                                                                                time)
               Response categories:

                -   Rarely- for example, approximately 0-50% of the time
                -   Sometimes- for example, approximately 51-70% of the time
                -   Frequently- for example, approximately 71-80% of the time
                -   Mostly- for example, approximately 81-95% of the time
                -   Almost Always- for example, approximately 96-100% of the time
Comments:
               EPA should take additional steps to ensure that network configurations are maintained. Our tests disclosed security patches and updates on network resouces
               were not always timely installed.


      8.c.     Indicate which aspects of Federal Desktop Core Configuration (FDCC) have been implemented as of this report:


               c.1. Agency has adopted and implemented FDCC standard configurations and has documented deviations.
                                                                                                                                                Yes
               Yes or No.

               c.2 New Federal Acquisition Regulation 2007-004 language, which modified "Part 39—Acquisition of
                                                                                                                                                Yes
               Information Technology", is included in all contracts related to common security settings. Yes or No.


               c.3 All Windows XP and VISTA computing systems have implemented the FDCC security settings. Yes or No. No




                                                                                 7
                                            Section C - Inspector General: Questions 9, 10 and 11
Agency Name:        Environmental Protection Agency
                                                             Question 9: Incident Reporting
Indicate whether or not the agency follows documented policies and procedures for reporting incidents internally, to US-CERT, and to law enforcement.
If appropriate or necessary, include comments in the area provided below.

                    The agency follows documented policies and procedures for identifying and reporting incidents internally.
        9.a.                                                                                                                        Yes
                    Yes or No.
                    The agency follows documented policies and procedures for external reporting to US-CERT. Yes or No.
        9.b.                                                                                                                        Yes
                    (http://www.us-cert.gov)

        9.c.        The agency follows documented policies and procedures for reporting to law enforcement. Yes or No.              Yes

Comments:
                                                     Question 10: Security Awareness Training
Has the agency ensured security awareness training of all employees, including contractors and those employees with significant
IT security responsibilities?

Response Categories:
                                                                                                                                    Almost Always (96-
 - Rarely- or approximately 0-50% of employees
                                                                                                                                    100% of employees)
 - Sometimes- or approximately 51-70% of employees
 - Frequently- or approximately 71-80% of employees
 - Mostly- or approximately 81-95% of employees
 - Almost Always- or approximately 96-100% of employees
                                     Question 11: Collaborative Web Technologies and Peer-to-Peer File Sharing

Does the agency explain policies regarding the use of collaborative web technologies and peer-to-peer file sharing in IT security
                                                                                                                                    Yes
awareness training, ethics training, or any other agency-wide training? Yes or No.

                                                   Question 12: E-Authentication Risk Assessments
12.a. Has the agency identified all e-authentication applications and validated that the applications have operationally achieved
the required assurance level in accordance with the NIST Special Publication 800-63, “Electronic Authentication Guidelines”? Yes Yes
or No.
12.b. If the response is “No”, then please identify the systems in which the agency has not
implemented the e-authentication guidance and indicate if the agency has a planned date of
remediation.




                                                                             8
                                                                                 Appendix A

        Summary of Significant Fiscal Year 2008
              Security Control Audits
During Fiscal Year 2008, the U.S. Environmental Protection Agency’s (EPA’s) Office of
Inspector General (OIG) initiated the following audits of EPA’s information technology security
program and information systems. The following synopsizes key findings.

1. Supplemental Fiscal 2007 FISMA Audit Results: 	OIG Results of EPA’s Efforts
   to Protect PII and Contractor Results of EPA Standard Configuration
   Documents’ Compliance with Federal Guidance or Industry Best Practices
   Assignment No. 2007-000802, December 20, 2007

   EPA needs to (1) issue a memo to Senior Information Officers to remind them of the
   Agency’s policy requirements for protecting personally identifiable information and the need
   to reiterate and reinforce compliance with the Agency policy, and (2) complete efforts to
   publish the Privacy Program procedures related to the Privacy Program policy.

   EPA concurred with the recommendations and subsequently implemented corrective actions
   to adequately address the report recommendations.


2. Review of the Quality of Self-Reported Security Information in EPA’s
   Automated Security Self-Evaluation and Remediation Tracking (ASSERT)
   System, Assignment No. 2008-0003

   The primary objective of this assignment is to determine whether EPA has implemented
   effective management control processes for maintaining the quality of the data in EPA’s
   ASSERT system. The OIG plans to issue a final report by December 2008.




                                               9
                                                                               Appendix B

                                    Distribution

Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Director, Office of Technology Operations and Planning, Office of Environmental Information
Senior Agency Information Security Officer, Office of Environmental Information
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Office of General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Deputy Inspector General




                                              10
